<html>
<title> - SMITHSONIAN NATIONAL AIR AND SPACE MUSEUM REVITALIZATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
        SMITHSONIAN NATIONAL AIR AND SPACE MUSEUM REVITALIZATION

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2016

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
      


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
   
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-518                   WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
  
   
   
   
   
   
   
                   COMMITTEE ON HOUSE ADMINISTRATION

   CANDICE S. MILLER, Michigan, 
             Chairman

ROBERT A. BRADY, Pennsylvania        GREGG HARPER, Mississippi
  Ranking Minority Member            RICHARD NUGENT, Florida
ZOE LOFGREN, California              RODNEY DAVIS, Illinois
JUAN VARGAS, California              BARBARA COMSTOCK, Virginia
                                     MARK WALKER, North Carolina

                           Professional Staff

                          Sean Moran, Staff Director
                      Jamie Fleet, Minority Staff Director
             
             
             


        SMITHSONIAN NATIONAL AIR AND SPACE MUSEUM REVITALIZATION

                              ----------                              



                        WEDNESDAY, JUNE 22, 2016

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:37 a.m., in room 
1310, Longworth House Office Building, Hon. Gregg Harper 
presiding.
    Present: Representatives Harper, Davis, Comstock, and 
Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Katie Patru, Deputy Staff Director; Mary 
Sue Englund, Director of Administration; Erin McCracken, 
Communications Director; Cole Felder, Legal Counsel; C. Maggie 
Moore, Legislative Clerk; Tim Sullivan, Staff Assistant; Jamie 
Fleet, Minority Staff Director; and Matt Pinkus, Minority 
Senior Policy Advisor.
    Mr. Harper. I now call to order the Committee on House 
Administration for today's hearing on the Smithsonian 
Institution's National Air and Space Museum Revitalization. The 
hearing record will remain open for 5 legislative days so that 
Members may submit any materials that they wish to be included. 
A quorum is present, so we may proceed.
    I welcome our two witnesses, the Secretary of the 
Smithsonian, Dr. David Skorton, and the Under Secretary for 
Finance and Administration and Chief Financial Officer for the 
Smithsonian, Albert Horvath. This is the first appearance of 
Secretary Skorton before our Committee. He has served as the 
13th Secretary of the Smithsonian Institution since July of 
last year.
    And we welcome you both.
    Congress established the Smithsonian in 1846 to carry out 
the will of English scientist James Smithson. Smithson sought 
to create an establishment for the increase and diffusion of 
knowledge. Since that time, the Smithsonian has developed into 
the largest museum and research complex in the world, with 19 
museums, 9 research centers, and the National Zoo.
    A major responsibility of the Smithsonian is to collect 
unique artifacts, which have shaped our Nation's heritage, and 
showcase some of those items so that they may be used as 
educational resources for today's generation and for 
generations to come.
    The Committee on House Administration works closely with 
Smithsonian staff in its oversight over the Smithsonian's 
operations. In that role, we are holding this hearing today to 
discuss the current plans to renovate the National Air and 
Space Museum. The National Air and Space Museum consists of two 
facilities which are open to the public, the flagship facility, 
which is located on the National Mall, and the Steven F. Udvar-
Hazy Center near Dulles Airport.
    The Air and Space's collection truly tells this country's 
amazing aviation history, and its facilities are some of the 
most popular. In fact, the Mall facility is one of the most 
visited museums in the world and with the world's largest 
collection of historic air and spacecraft among its 63,000 
artifacts.
    Iconic objects include the 1903 Wright Flyer, Charles 
Lindbergh's Spirit of St. Louis, Chuck Yeager's Bell X-1, the 
Apollo 11 Command Module ``Columbia,'' and the Key brothers' 
airplane from Meridian, Mississippi--thought I would throw that 
in--which stayed in the air for 27 days without landing, by the 
way, which perfected aerial refueling in 1935.
    Next month, the Air and Space Museum's Mall facility will 
celebrate its 40th anniversary. With nearly 7 million visitors 
a year, the museum is the most visited museum in the United 
States and is one of the world's most popular museums, having 
received more than 320 million visitors since its opening.
    The more than 500,000-square-foot Mall facility was 
constructed by GSA between 1972 and 1975 at a cost of $41 
million. It includes over 20 exhibit galleries, a planetarium, 
theater, public observatory, and the popular interactive flight 
simulators. The facility also includes a restaurant, gift shop, 
and administrative staff space on the third floor.
    Approaching its 40th anniversary this July, the museum's 
mechanical systems are nearing the end of their useful life. 
Additionally, the building's original design has led to the 
cupping of the stones that make up the building's outer stone 
cladding. The Air and Space Museum's Mall facility is in need 
of major upgrades and construction repairs. This is the largest 
revitalization project to date in the Smithsonian's history, 
with a price tag of more than $600 million.
    The Smithsonian has determined the most cost-effective 
approach, with the least impact on visitors, is to renovate 
rather than to demolish and replace the facility. The 
Smithsonian's proposed revitalization plan will take place over 
the course of several years, staggering out the overall 
construction costs and work and allowing visitors to still 
experience the museum. The Committee has been assured that the 
museum will remain at least partially open during the 
renovation and that all of Smithsonian's museums will continue 
to be free to the public.
    The goal of our hearing today is to review whether the 
Smithsonian Institution's plan for the Air and Space Museum 
renovation of the Mall facility has been thoroughly developed 
and vetted, eliminating the need for additional renovations to 
this specific project in the near future. Congress must be 
assured that the proposed renovation has taken into account all 
potential costs, as well as the timing and the value of the 
work being proposed.
    During this hearing, we want to hear from our witnesses if 
the Smithsonian is considering non-Federal funding sources, 
such as philanthropic or other potential partnership 
opportunities, in the event the full appropriations request for 
the renovation is not met by the Federal Government.
    We would also like the Smithsonian to address if it has 
fully vetted this renovation plan by conducting independent 
assessments to determine if current cost estimates and proposed 
timetables are accurate and realistic.
    Additionally, we would like to hear from our witnesses on 
how the addition of proposed storage space located at the 
Garber facility in Maryland and our other center will tie into 
this renovation. Legislation H.R. 3702 has been referred to 
this Committee to authorize the construction of these two 
storage facilities.
    This Committee wants to be supportive of the needs of the 
Air and Space Museum and ensure that the facility is in a 
position to have a long and vibrant future. We view this 
hearing as your opportunity to make the case for funding to the 
public. There are many competing priorities before Congress 
today, and our Committee looks forward to hearing your comments 
on this renovation plan.
    Lastly, our Committee appreciates any information our 
witnesses have regarding the overall state of the Smithsonian 
Institution, any challenges before you as a whole that we 
should be aware of, as well as other potential renovation 
projects on the horizon.
    Each of the Smithsonian's entities is cherished by us all, 
and we feel a personal responsibility to ensure the success of 
this valued institution and its continued operation for future 
generations. The Smithsonian is truly one of the great 
treasures of our Nation and the world, and we look forward to 
the Institution's continued service.
    I thank our witnesses for their appearance before our 
Committee today, and we look forward to hearing from them on 
revitalization plans.
    I would like now to recognize my colleague, Mr. Vargas, for 
the purpose of providing an opening statement.
    Mr. Vargas. Thank you very much, Mr. Chairman. I appreciate 
it.
    Mr. Chairman, thank you for holding this important hearing. 
And welcome to Secretary Skorton, who is making his first 
appearance, I believe, before this panel, the primary oversight 
committee in the House for the Smithsonian Institution.
    I want to welcome Mr. Horvath also, the Under Secretary of 
Finance and Administration. Also welcome to you, sir.
    I am filling in for our Ranking Member this morning who is 
delayed in Philadelphia working on making sure we have a 
successful convention in his district in just a few weeks, so 
he apologizes. I do understand that Mr. Brady did speak with 
you yesterday, Mr. Secretary, and I know that he appreciates 
your appearance here today and is committed to working with you 
for a successful revitalization of this amazing museum.
    This is an exciting year for the Smithsonian. The Museum of 
African American History and Culture is opening in September 
with President Barack Obama cutting the ribbon. It seems like 
only yesterday this Committee reported the authorization bill 
for that museum, and it was only yesterday, in 2012, that we 
finally had the groundbreaking.
    The passage of time continually requires the Smithsonian to 
develop new and improved ways to undertake the construction, 
education, collections management, and scientific research 
activities for which it has been so well acclaimed. And of 
course, the Institution must always look to preserve and 
improve the infrastructure, which dates back into the 19th 
century.
    The National Air and Space Museum is one of the Capital's 
and this Nation's major tourist attractions. It is probably the 
museum most associated with the Smithsonian by the American 
people. In 2009, Chairman Brady convened a hearing which 
focused on public health and safety, worker safety issues 
related to asbestos abatement in the Air and Space, an 
important issue given the passage of millions of people through 
the building's halls every and each year.
    It is now critical for our Committee to understand the 
fiscal implications of this massive new revitalization project, 
which will keep portions of the museum closed over a period of 
approximately 6 years. The Air and Space Museum opened with 
great fanfare in 1976 for the U.S. Bicentennial, but, 
unfortunately, it was apparently not built the last for the 
ages.
    The need for massive external and internal retrofitting at 
a time when limited Federal funds are available will place 
stress on the long list of other priorities which the 
Institution is pursuing. And seeking funding for both Federal 
and private, some hard choices obviously are going to have to 
be made.
    I think, Mr. Harper, you did mention that that plane from 
Mississippi, I believe, was up for 27 days?
    Mr. Harper. Yes, sir.
    Mr. Vargas. It must have been built in San Diego, 
California, where we have, of course, some fine--that is 
outstanding. I did not know that. So, again, that is a 
wonderful fact.
    And, Mr. Secretary, Mr. Under Secretary, it is a pleasure 
to be here.
    And I thank Mr. Chairman, again, for the opportunity to say 
a few words.
    Mr. Harper. Thank you, Mr. Vargas.
    Any other Member? Mr. Davis, do you care to make any 
statement?
    I certainly would also like to follow up on that, that Mr. 
A.D. Hunter was the inventor who designed the shutoff valve for 
the aerial refueling, which is still used today with just a 
minor modification at all aerial refueling. So we are excited 
about that.
    I don't know that I would have wanted to have been on that 
flight because it is a single-engine plane with a metal catwalk 
on the side of the engine, and somebody had to climb out there 
during flight and service the engine. So not a lot of fun to 
do.
    But thanks again to our witnesses.
    And I would like to also say that our Chairman, Candice 
Miller, sends her regrets. She certainly planned to be here, 
but the weather did not accommodate, and she was one of those 
many who couldn't get into DCA, into Reagan National last 
night, and is traveling this morning. So she sends her regrets 
that she could not be here and wishes each of you the best.
    I would now like to introduce our witnesses. Dr. David 
Skorton is the 13th Secretary of the Smithsonian. He assumed 
his position July 1 of 2015. As Secretary, Dr. Skorton oversees 
the entire collection of museums and galleries, libraries, 
National Zoo, and numerous research centers. Dr. Skorton is 
responsible for an annual budget of $1.3 billion, 6,500 
employees, and more than 6,300 volunteers.
    Before coming to the Smithsonian, Secretary Skorton, who is 
also a board certified cardiologist, previously was the 
president of Cornell University, a position he held from July 
2006. Secretary Skorton is the first physician to lead the 
Smithsonian.
    Albert Horvath serves as the Under Secretary for Finance 
and Administration and Chief Financial Officer for the 
Smithsonian, where he manages administrative offices, including 
facilities and maintenance, human resources, security, and 
financial operations. Mr. Horvath did serve as Acting Secretary 
for 6 months last year following the retirement of then-
Secretary Wayne Clough. Before joining the Smithsonian in 2011, 
Horvath's career spanned more than 30 years in administration 
at five universities and the Mellon Bank.
    Again, we thank both of you for being with us today. The 
Committee has received your joint written testimony. And the 
Chair now recognizes Secretary Skorton, and I will recognize 
him for 5 minutes.

  STATEMENTS OF DR. DAVID J. SKORTON, SECRETARY, SMITHSONIAN 
  INSTITUTION; AND MR. ALBERT G. HORVATH, UNDER SECRETARY FOR 
    FINANCE AND ADMINISTRATION AND CHIEF FINANCIAL OFFICER, 
                    SMITHSONIAN INSTITUTION

                 STATEMENT OF DAVID J. SKORTON

    Dr. Skorton. Thank you, Congressman Harper and Congressman 
Vargas, for the opportunity and honor to testify before the 
Committee on House Administration. And Mr. Horvath and I also 
thank you for the lesson in aviation history that you both just 
shared with us in a bipartisan fashion. Thank you.
    Due to the generous and steadfast support of Congress, the 
Smithsonian is able to tell our Nation's story in relevant and 
compelling ways and to inspire the next generations of American 
scientists, artists, teachers, and leaders.
    July 1 marks my first anniversary on becoming Secretary of 
the Smithsonian. Even though a year has passed, every day I 
continue to learn more about and become more impressed by the 
breadth, depth, and the quality of the Smithsonian's work in 
the arts, humanities, and sciences. Every day I continue to 
grow more excited by the Smithsonian's enormous potential to 
engage with the public on some of the most challenging issues 
we face together as a Nation. Every day, I continue to observe 
the special bond between the Smithsonian and the American 
public, how Americans feel ownership and pride in the 
Smithsonian, and their high expectations for and trust in us. 
And every day I continue to consider myself privileged to 
support the dedicated Smithsonian community.
    Each year, millions experience the creativity and 
innovation of our Smithsonian community through exhibitions, 
scholarly research, public programming, and educational 
outreach, not only here in Washington but across America and 
around the world. For example, more than 600,000 visitors have 
been captivated with the WONDER exhibition at the newly 
reopened Renwick Gallery. The gallery itself has become a work 
of contemporary art and an integral part of an exhibition that 
has clearly resonated with the public. Since opening in 
November, WONDER has inspired almost 100,000 social media 
posts.
    And at the National Museum of American History, we are 
exploring new ways to engage the youngest audiences through 
wonder of a different sort. The Wegmans Wonderplace is a 1,700-
square-foot play area designed to excite the Smithsonian's 
youngest visitors about American history with novel 
interactives and objects from the museum's collections. The 
success of Wonderplace has, however, created one unexpected 
problem: how we manage parking logistics for dozens of 
strollers and baby carriages.
    Just this past Monday, the Smithsonian Center for Learning 
and Digital Access launched a digital learning lab that enables 
teachers and students to find and share more than a million 
museum resources. We piloted the program in Pittsburgh and 
Allegheny County, Pennsylvania, public schools. Teachers there 
told us that the lab's online tools allowed them to build 
immersive and individualized learning experiences and to share 
them with other teachers. As one teacher in Moon, Pennsylvania, 
explained, ``It has helped my student and me to think more 
creatively.''
    On a more international scale, we are sharing our expertise 
in collecting and preserving culturally important artifacts 
with museum and government officials from across the globe. In 
this regard, the Smithsonian is right now hosting a month-long 
course entitled ``First Aid to Cultural Heritage in Times of 
Crisis,'' training participants from 18 nations to anticipate 
and manage threats to cultural artifacts from war or natural 
disasters.
    Smithsonian staff are also responding to real and immediate 
crises near and far from home. In Mali, where jihadists 
destroyed ancient tombs and burned archives, we convened museum 
directors from across West Africa to share strategies for 
responding to terror and provided training for crises. In 
Egypt, we responded, along with the Metropolitan Museum of Art, 
to bomb-related damage sustained by Cairo's Islamic museum 
providing quick assessments and counsel. And in Haiti, 
following the catastrophic earthquake of 2010, the Smithsonian 
partnered and continues to partner with international 
organizations and the Haitian Government to rescue, recover, 
safeguard, and restore cultural artifacts and buildings.
    As was mentioned, in less than 100 days, we will open the 
new National Museum of African American History and Culture. 
This spectacular building at the foot of the Washington 
Monument was made possible only through the support of the 
Congress and thousands of individuals, foundations, churches, 
and corporations across the U.S. and the world.
    As the museum's founding director, Lonnie Bunch explains, 
the museum will not be one that celebrates Black history solely 
for Black Americans; rather, we see this history as America's 
history. The museum will use African American history and 
culture as a lens into what it means to be an American. I look 
forward to celebrating with you at the museum's grand opening 
on September 24.
    Today, though, we are here to update you on the 
Smithsonian's plans to revitalize the National Air and Space 
Museum, home to some of our most iconic objects and one of the 
world's most visited museums. Next week, the Air and Space 
Museum building on the National Mall will turn 40. Congress had 
appropriated funding in 1971 to construct the museum with a 
goal of opening during the American Bicentennial.
    On July 1, 1976, the museum welcomed its first visitors. 
While the building was designed to accommodate about 2 million 
visitors per year, within the first 6 months the 5 millionth 
visitor was already counted. Now, four decades later, the 
museum hosts over 7 million visitors annually and has welcomed 
326 million visitors since 1976.
    The passage of time and the many millions of visitors have 
taken their toll, and the museum needs a major overhaul. The 
building's mechanical systems are nearly 40 years old and have 
exceeded their expected useful lives.
    The need for new systems was not unexpected, and for 
several years the Smithsonian had planned to request funding 
accordingly. However, in preparing for the system's replacement 
project, our engineers discovered that many of the building's 
exterior stone panels were warped or were cracked and that the 
entire stone facade needed replacement.
    Originally, we anticipated that replacing the building's 
systems would cost approximately $250 million and be spread 
over several years. Now, with the added complexity and cost of 
the exterior stone replacement and the need to protect or 
relocate more artifacts in the path of construction activities, 
the current estimate for the building revitalization project is 
$676 million.
    In March, I testified before the House Appropriations 
Interior Subcommittee and, reflecting our best knowledge then, 
noted a construction estimate of approximately $582 million 
based on early schematic designs. Since that time, we have 
reached 35 percent completion of design. We now know much more 
about the building's condition and the logistics required to 
protect the collections, and our cost estimate has consequently 
increased.
    Five primary goals underlie our approach to the 
revitalization project and drive our estimated budget.
    First, we want to make as many of the museum's iconic 
objects accessible to the public as possible during the 
revitalization project. Americans, especially young Americans, 
come to Washington and expect to visit the Air and Space 
Museum. We do not want to disappoint them. But to avoid that, 
construction will need to be sequenced along zones that would 
allow for at least 50 percent of the museum to be open to the 
public while the work progresses. Doing this, however, adds to 
the complexity and cost of the overall project.
    Second, as I have mentioned, we have long recognized that 
the building's systems, air handling, humidification, plumbing, 
and electrical, were overtaxed and their useful lives exceeded. 
Almost 55 percent of the project's total cost will support the 
installation of new building systems. This is a cross-section 
of sprinkler pipe from the museum illustrating the state of 
these critical systems.
    Third, early in the design and planning phase, our 
engineers discovered that the building's marble cladding was 
warping, cupping, and cracking, creating the danger of 
individual panel failure and an increasing risk that stone 
could fall. The stone used when the building was constructed 
was half the thickness that should have been used. This drives 
the need to replace rather than repair the stone, an 
unanticipated increase to the project's scope.
    Replacing the stone with an identical or similar material 
and associated expenses, such as demolition of the old stone, 
protection of the museum's interior from moisture during 
construction, the addition of structural reinforcement, and the 
containment of hazardous material, adds $101 million, $49 
million of which is for securing the new stone, to the overall 
construction cost.
    Fourth, we intend to transform the 22 galleries in the 
museum to bring them into the 21st century with more 
interactive and engaging approaches to sharing the excitement 
of the museum's incomparable collection. In essence, we are 
creating a new National Air and Space Museum for the American 
public. The transformation of the inside of the building will 
be supported by private contributions that we intend to raise.
    And finally, we must store and protect the museum's 
collection during construction. For fiscal year 2017, we 
request $50 million in construction funding to build a new 
storage module adjacent to the Smithsonian's Udvar-Hazy Center 
in Chantilly, Virginia. The module's total project cost, 
including $8 million already appropriated and committed to 
engineering, design, and management, is estimated at $58 
million. The cost of the storage module is not included in the 
estimate for the Mall building revitalization, but is 
nevertheless critical for the success of the larger 
revitalization project.
    The availability of this quality collection storage space 
favorably impacts our budget estimate by eliminating the need 
to rent more short-term collection storage space. And at the 
conclusion of the project, the module will be used to house 
artifacts currently stored at aging temporary buildings at the 
Garber facility in Suitland, Maryland. A bill authorizing 
construction of this module and an additional storage module at 
Suitland has been referred to this Committee.
    We believe the Air and Space project should be funded by 
Federal appropriations in the same manner as other major 
Smithsonian revitalization projects. And, as with the public-
private partnerships that made those projects successful, the 
Smithsonian has committed to raise the additional $250 million 
from private sources to transform the museum's 22 galleries to 
a more imaginative, accessible, and compelling setting for the 
world's most important aviation and space collection.
    Under Secretary Horvath and I would be pleased to answer 
any questions that you may have, and we thank you again for the 
opportunity to testify today.
    [The joint statement of Dr. Skorton and Mr. Horvath 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Harper. Thank you, Secretary Skorton, for that 
informative statement.
    We will now move into our questions portion, and I will 
begin by recognizing myself for 5 minutes.
    The first question. This project is obviously substantial 
in both scope and cost. Without getting into the specifics of 
this one just yet, are there other anticipated renovation 
projects on the horizon, anything besides this that we are 
looking at?
    Dr. Skorton. Yes. The Smithsonian, as you mentioned, is in 
its 170th year, and the visitorship to these museums is 
breathtaking. We have 28 million visits a year throughout the 
Smithsonian between Washington, where the vast majority of them 
are, and New York City, where we have two additional museums. 
And this very robust visitorship shows the American public's 
interest in and trust in the institution and a chance to cross 
those thresholds 364 days a year.
    Because of the crush of humanity that goes to these 
buildings and because of our dedication and commitment to the 
safety of the public and having them interact and be inspired 
by constantly changing exhibitions, we do anticipate in years 
to come that further renovations will be necessary throughout 
the Smithsonian family.
    Mr. Harper. And if you would, elaborate just briefly on the 
Smithsonian's deferred maintenance backlog and how this project 
will impact that.
    Dr. Skorton. I will do the beginning of this answer and ask 
my colleague, Under Secretary Horvath, if he wishes to add 
something to it.
    The deferred maintenance backlog for the Smithsonian is a 
very large and daunting figure. And I want to say again and 
again how much I appreciate and, being new to the Smithsonian, 
how impressed I am by Congress' very steadfast support of the 
Smithsonian.
    Because of constraints that I would not want to face that 
you face every day making very difficult choices, we have not 
been able to keep up with the maintenance of these buildings as 
would be ideal. And there is nothing surprising about that. 
With so much square footage and with so many visitors, it would 
be expected that we would have a backlog of some sort.
    What Mr. Horvath and his colleagues and those who manage 
the facilities of the Smithsonian have done is to prioritize 
the use of precious Federal funds to those aspects of the 
deferred maintenance that most affect the public safety and the 
operability of these buildings.
    Nonetheless, we do have a substantial backlog. And our 
plans are to continue to prioritize the needs based, again, 
first on public safety and then on the stability of the 
operations, including, very importantly, protection of the 
collections. And we hope to continue to make our case to 
Congress for helping us in whatever fashion you can to deal 
with the need for continuing upgrades to our very, very heavily 
used facilities.
    Mr. Horvath, would you like to add anything?
    Mr. Horvath. Just to add very quickly, the Air and Space 
Museum in the context of our overall needs is at the top of our 
list of deferred maintenance challenges. It had been programmed 
in our long-term capital plan for many, many years, and so 
addressing these issues helped take some of the most 
problematic challenges off the list. Our challenge continues, 
though, with the other buildings in our 12 million-square-foot 
portfolio of buildings.
    Mr. Harper. Thank you.
    Secretary Skorton, can you provide the Committee a more 
detailed explanation of why it is almost twice as expensive to 
demolish and rebuild the museum rather than renovate the 
building? And why would rebuilding the museum require it to be 
closed for 9 years?
    Dr. Skorton. I was very surprised as well when I first came 
to the Smithsonian and was briefed by Under Secretary Horvath 
about the comparative cost of the revitalization project versus 
raising the building and starting over.
    Because of the need to protect the collections, we would 
have to spend enormous amounts of money to rent or build space 
to house the very, very substantial collections. And in this 
regard, Congressman Harper, it is not only the number of 
objects in the collection, but the nature and size of many of 
the objects in the National Air and Space Museum compared to 
some other aspects of our 138 million-object overall 
collections for the Smithsonian. So an enormous cost due do 
that is one.
    In closing the museum for that period of time, we would 
also lose revenue from some of the retail operations that are 
in it. And then the other area, which does not line up with a 
cost, a monetary cost, but would have a cost on the Nation, in 
my opinion, is keeping people out of that museum for an 
extended period of time. And, again, because of the need to 
protect the collection, our estimations were based on the idea 
that we would have to close the museum for some years.
    In designing this project, in my estimation, very 
skillfully, Mr. Horvath and my predecessors, when he was 
Secretary and before him, decided to develop this idea of a 
zoned or phased replacement of different areas that would allow 
us to keep perhaps 50 percent of the museum open to the public 
at all times.
    And so the combination of the need to spend extra money on 
collection storage, protection, and management, and the loss of 
retail revenue and a few other less large factors, all ended up 
meaning that complete razing and starting it over again was not 
just a little, but very substantially more than doing it in 
this fashion.
    Would you want to add anything?
    Mr. Harper. Thank you very much.
    And I, at this time, I will recognize Mr. Vargas for 5 
minutes for questions.
    Mr. Vargas. Thank you very much, Mr. Chair. Appreciate the 
opportunity.
    Again, I want to thank both of you for being here today and 
testifying before us and, again, for your service. I appreciate 
it. I know that sometimes it must seem thankless, but believe 
me, we are thankful for your service.
    Could we just continue on that last question just to finish 
up in my mind. It did seem, to me, odd that we wouldn't, when 
we are spending that much money, just take the whole building 
down and redo it. I mean, it seems to me that that would have 
been the logical choice if we are spending this amount of 
money. Because I thought you could maybe organize the museum in 
a way that is more your liking and more efficient, and it has 
been around for a long time. But ultimately, you didn't come to 
that conclusion, obviously, from your testimony. Could you just 
say a little more about that?
    Dr. Skorton. Yes. I want to emphasize again, and I 
apologize if I wasn't clear enough in the prepared formal 
testimony, that this will be a new National Air and Space 
Museum, even though we are not razing the building and starting 
from scratch. We will have not only replacement of the 
important mechanical systems, we will have replacement of life 
safety systems; we will have a complete new what I would call 
envelope for the building, roof, cladding, and so on; and very 
importantly, Congressman Vargas, we will have upgrades of all 
22 galleries, in essence, starting over again in our thinking 
of how to engage the American public.
    So as a nonspecialist in facilities, but as a student of 
facilities development for many years in many earlier 
assignments, I would say that how Mr. Horvath and my 
predecessors planned this project was actually a very 
thoughtful and less expensive way of accomplishing just what 
you are talking about, and that is basically having a new 
museum without all of the costs and loss of revenue that would 
have been involved by completely knocking it down.
    And I want to emphasize the public-private partnership 
nature of our plans, that a quarter of a billion dollars I have 
committed to raise from philanthropic sources to completely 
revamp the experience that people will have as they come to the 
National Air and Space Museum, and then the combination of 
mechanical systems, life safety systems, and the envelope of 
the building, will really, in essence, create a new Air and 
Space Museum.
    Mr. Vargas. Thank you, Doctor.
    You know, I live in a historic home, so I am very familiar 
with the different costs associated with an old building as 
opposed to just razing it. This one I didn't understand if it 
was because of the historicity, the nature of the building 
itself. It hasn't been around that long. I thought maybe that 
was one of the reasons, but I don't believe that that is. 
Anyway, I appreciate your comments.
    I do want to ask about the stone itself on the outside. So 
you said that it was only half the thickness that it was 
supposed to be, so that is why you had the cupping and the 
breaking. How are we going to be assured that what we are doing 
now will last beyond what the old stuff has lasted?
    Dr. Skorton. So Under Secretary Horvath and I and all of 
the thousands of people working at the Smithsonian standing 
behind us are very, very well aware as American citizens of the 
enormously difficult choices that you make every day. And we 
were, I think not dramatic to say, we were shocked in 
developing the plans to replace the mechanical systems by this 
issue with the cladding, which was, I believe the Under 
Secretary would agree with me, completely unanticipated at the 
time that this was done.
    I don't second-guess anybody who was making decisions five 
decades ago about how to do this. But the decision to cut this 
stone thinner than would have been ideal is going to make it 
impossible for us to reuse the stone, to reuse it, impossible 
to reuse it.
    And so our plan--and it is not just a hope, but a plan--is 
to make the decisions for this construction project in such a 
way that our successors will not be coming back to the 
Committee on House Appropriation to have the very same kind of 
conversation. We will build this for the long-term and do it in 
a very thoughtful way, and that is part of the reason that the 
project cost is so substantial.
    Mr. Vargas. My time is almost over and I apologize. I did 
want to ask then what do you see as the expected timeline on 
this building, how long will it be a useful building after this 
major revitalization?
    Dr. Skorton. Assuming that we can obtain the appropriate 
funding for ongoing maintenance--it is a very, very important 
assumption--I believe that this building will have at least a 
100-year forward look. But that is very dependent, I must say 
with respect, on us being able to have sufficient funding to do 
important maintenance as we go forward.
    And would you like to add anything?
    Mr. Vargas. Thank you very much.
    Thank you, Mr. Chair. Appreciate it. My time is over.
    Mr. Harper. Thank you.
    And Secretary Skorton, we will have you back in 100 years 
to verify that it lasted after that, if that is okay.
    We will now recognize Congressman Davis for any questions 
that he may have.
    Mr. Davis. Thank you, Mr. Chairman.
    And thank you, Mr. Ranking Member. It is always great to 
follow those questions.
    We should have actually done this at the Air and Space 
Museum and would have had an enjoyable time.
    Thank you for what you do. I mean, obviously, the thousands 
of visitors just from my district that go through your 
facilities are always telling great stories. And, as a matter 
of fact, the Air and Space Museum happens to be my twin boys' 
favorite. They have been there numerous times, much to the 
chagrin of my wife, who usually walks there with them.
    But we do need to tell the history of our country and the 
history of our air and space program. My concern is less with 
what your plans are in the future and more with how are you 
going to address in today's current environment--you are asking 
for appropriations from the Federal Government--what if the 
Federal Government's unable to give you what you think you need 
to keep the project of this magnitude moving from year to year?
    And I want to commend you for the possible private sector 
investment that you mentioned. Are you going to be able to 
leverage private sector investment if we are not able to get 
the appropriations level that you have requested for any given 
year--and that has happened on other major projects before--or 
will you take it from other existing revitalization projects?
    Dr. Skorton. We need to have Federal funding of that 
portion that I mentioned, the 676. And the reason I say that 
strongly is that I have a very long history of nonprofit 
fundraising in multiple institutions, and it has been my 
experience that it is very, very difficult to raise private 
funds for replacement of mechanical systems, replacement of an 
envelope of a building, those sort of things. It is very 
difficult to do that.
    We do intend to raise funds completely from private sources 
to change the interior of this building and bring it, as I 
mentioned, into the 21st century. If, as I hope does not 
happen, in your very difficult decisions it is impossible for 
us to get the funds that we need, we will do our best to look 
forward over the period of time to coming back and to making 
our case in a more convincing way.
    But if those eventualities don't occur, and if we are 
unable to get Federal funding, I believe that the day will come 
where we will have to begin to reduce the public experience of 
the National Air and Space Museum. If there are areas that 
become dangerous to public health and safety, we may have to 
close those particular areas. And the day may even come where 
the entire museum would have to be closed to the public if we 
never have a chance to do this.
    Now, that day isn't today; that day isn't tomorrow. And we 
want to do the project in a thoughtful way over the period of 7 
years, including the design phase, as was mentioned.
    Mr. Davis. I have got a couple more questions, so let me 
reclaim my time.
    Dr. Skorton. Yes, please.
    Mr. Davis. Speaking of the hazardous materials, has anybody 
done a study about the potential of any hazardous materials 
that could add to the cost or potentially shut the museum down 
during this renovation?
    Dr. Skorton. Yes, and that is part of the estimate that you 
already have in front of you.
    Mr. Davis. That is already part of the estimate, okay.
    Dr. Skorton. Yes.
    Mr. Davis. One other question I had. I know your retail 
operations generates some significant revenue. There is nothing 
like space ice cream back at your hotel. It doesn't really 
taste as good as the package says it does. I apologize. I hope 
I don't cut down on your revenue generation by saying that.
    How are you going to mitigate the loss of any revenue 
during this revitalization or renovation process?
    Dr. Skorton. It is a very, very important question, and we 
are going to do that by judicious use of this phased or zoned 
project so that we are going to try to maintain as much of the 
retail operation by careful use of the zoning or phasing.
    Mr. Davis. All right. Can we actually offer any flavor 
requests for the space ice cream?
    Dr. Skorton. You can send us requests of any type you like, 
and I will take the pop flies and Mr. Horvath will take the 
line drives.
    Mr. Davis. All right. Hey, again, we do sincerely 
appreciate what you do. People take for granted the experience 
that they can get while going to the different Smithsonian 
museums, a very important part of our Nation's history. Thank 
you for being here. Thank you for explaining the reason why you 
have chosen this project--I have your spreadsheet--versus the 
cost of the new building. We will look into that further. And 
if I have further questions, I would hope we could be able to 
get together and ask those.
    Dr. Skorton. Thank you. We are at your service.
    Mr. Davis. Thank you, sir.
    Mr. Harper. The gentleman yields back.
    And I now recognize Congresswoman Comstock for any 
questions that she may have.
    Mrs. Comstock. Thank you, Mr. Chairman.
    And thank you for the opportunity to visit. I have been out 
to the Dulles facility, in particular. Obviously, like my 
colleagues, I have been to the facility on the Mall. But I 
particularly appreciate the Dulles facility in my district. And 
I certainly did see from the presentation, the visit we had 
there, the challenges that you have with the storage. And I 
know the storms over the years have taken their toll on the 
facilities to where some of the buildings are literally falling 
down. If you haven't seen it, it really is a problem.
    And then you have some very historic planes and space items 
that are in a precarious situation, and if we lose them, we 
lose that history forever.
    So I do appreciate the difficulty of the challenge. And if 
folks haven't been out to the Dulles facility, what is 
particularly great is to see the work being done right there 
and seeing all the complex programs you have.
    And so I wanted to ask--first, thank you for all the good 
work that you are doing there. Are there naming opportunities 
or things there from the aerospace industry where they can--I 
mean, obviously, as you do the private fundraising, they will, 
I assume, probably be a target for the fundraising, and, 
obviously, people are very interested in preserving that 
history that they are very much a part of. But are there naming 
opportunities there throughout the facilities where we can use 
that in some kind of respectful way that works with the overall 
mission?
    Dr. Skorton. Yes, there definitely are. And the fact that 
the facility in Chantilly is called the Udvar-Hazy Center is a 
very good example of that. In pursuing the success of the goal 
of $250 million to transform the 22 galleries, we will look 
very judiciously at those opportunities as well.
    And if I might offer just a comment, still as a relative 
newcomer to the Smithsonian, I believe there is a beautiful 
balance and synergy between Congress' steadfast support and the 
ability to raise private funds. I think people in the public 
are more likely to give philanthropically if they see that this 
is a congressional priority. And at the same time, I would 
assume that our ability to raise private funds, making this 
truly a public-private partnership, will make it more likely 
that you see us as very careful stewards of the precious funds 
that you give us.
    So, yes, there will be opportunities. And my colleagues, 
especially General Dailey, is already looking into some of 
those options.
    Mrs. Comstock. And is there anything that we in Congress 
are doing that holds back those opportunities? I know we always 
run into ethics things about how we can sort of legally promote 
and help in any of these ways. And so are there ways that we 
are holding you back in any way that we might need to know 
about so that you can advance those?
    Dr. Skorton. No. I think you do an enormously, enormously 
effective job of two very important things: that you are very 
generous with us, and at the same time, you help us maintain 
the very highest ethical standards. Because the currency that 
allows us to be what the American public wants us to be is our 
integrity, and you help us very much every day to maintain our 
integrity as we assertively try to raise funds in every fashion 
that we can. So I have nothing but praise and gratitude for the 
Congress throughout these areas.
    Mrs. Comstock. And I should know, but what is the ability 
to use the facility for private events, for people to come in, 
to hold events, again, that you can charge for obviously? And 
how is that utilized? And is there some more opportunity there, 
whether it is overnights at the museum or things? I mean, are 
we able to do those in a way that is profitable for you?
    Dr. Skorton. We do have a very well-developed system of 
doing that. And if it would be acceptable to you and to the 
Chairman, what I could do is get that policy to you to explain 
how we handle that situation. But we do that in a very robust 
way throughout the Smithsonian family. And I am very happy, if 
you would like, for us to give you details.
    Mrs. Comstock. Okay. And I know you do have good 
advertising at Dulles Airport. When you are riding around, you 
get information on visiting there. But I have been bugging our 
local airport, Dulles, to do more advertising and promotion 
there. So if there are video opportunities, more signage, 
because Dulles is so huge and big and they need to be 
advertising a lot of the local things that are going on, so if 
that is an area where it might help drive more traffic there as 
well as more support, corporate support as people come in and 
see that, I think that might be another way we can be promoting 
and protecting your efforts there.
    Dr. Skorton. Thank you.
    Mrs. Comstock. So let me know if we can--whatever we are 
legally allowed to do, I would be happy, and really do 
appreciate the good work that you are doing there.
    Dr. Skorton. Thank you very much. I think that is a very 
interesting idea. I personally will follow up on that after the 
hearing. Thank you very much.
    Mrs. Comstock. And I yield back, Mr. Chairman.
    Mr. Harper. The gentlelady yields back.
    One final question, if I may ask. You had said earlier that 
35 percent of design completion had been achieved. Was that 
correct on what your answer was?
    Dr. Skorton. Yes, sir.
    Mr. Harper. And when will we get to 100 percent of design 
completion? And what might we anticipate on the effect that 
would have on projected cost?
    Dr. Skorton. Thank you. I am going to turn in a moment to 
the Under Secretary to tell you the exact date for 100 percent 
completion. But anticipating the question, I went back and 
looked at our track record of predictability once we get to the 
35 percent design level, and I found that in about half the 
cases I looked at we ended up a bit above budget and about half 
the cases we ended up a bit below budget, in general, within 
about 10 percent of that 35 percent prediction.
    And where it exceeded in a substantial way, it usually was 
because of some change in the scope of the project. So I am 
much more confident at the 35 percent, that we are somewhere, 
let's say, 90 percent certainty that this is where we will end 
up.
    And, Under Secretary, can you remind us the date of 100 
percent completion?
    Mr. Horvath. It will be about a year from now. The next big 
milestone will be at the end of this calendar year when we 
expect to hit 65 percent completion and then virtual completion 
of design would be the summer of 2017.
    Mr. Harper. And if you could, when you hit that 65 percent 
mark, if you could inform us of any changes in that cost 
estimate, that would be helpful.
    Mr. Horvath. Certainly.
    Mr. Harper. You know, as we look at the prioritization and 
the costs that we have, one of the concerns, obviously, is how 
we take care of this deferred maintenance, how we address those 
issues and prioritize them, how we come up with the right 
funding. But at the heart of this, what the Smithsonian means 
to Americans and to our visitors. It is our goal to always keep 
this free for admission, where people can come and enjoy this, 
regardless large school groups or families, always keep this 
open.
    You have a great team. You should be thankful for that and 
for all the support they have.
    Without objection, all Members will have 5 legislative days 
to submit to the chair additional written questions for the 
witnesses, which we will forward. And I ask the witnesses to 
respond as promptly as they can so their answers may be made a 
part of the record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Harper. Without objection, this hearing is adjourned. 
Thank you.
    Dr. Skorton. Thank you very much.
    [Whereupon, at 11:26 a.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
